                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

     Case Number: I07020008
                                                                                      11            Page 1 of 1



           The National Science Foundation (NSF) Office of Inspector General conducted a proactive review
           of grants that included international collaboration awarded during FY 2004. The purpose of the
           review was to assess compliance with applicable laws, regulations, and NSF award conditions. To
           that end, this international collaboration award' was selected for review.

           OIG contacted the universitf to request all financial information and supporting documentation
           related to the grant. OIG reviewed the information submitted by the university and determined
           that approximately $9,634.55 was used for academic salary and benefits when the NSF-approved
           budget did not allocate salary. We contacted the university to request additional information and
           clarification of the salary charges to the grant. After reviewing additional information and
           clarification sent from the university, we ,are satisfied that the university did not re-allocate funds
           earmarked for participant support.

                     Accordingly, this case is closed.




I'                                                                                                                   I   I
 NSF OIG Form 2 (1 1/02)
